  Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




 MISSOURI CLAIMED UNALLOWABLE
MEDICAID PAYMENTS FOR INDIVIDUALS
     WITH INTELLECTUAL AND
  DEVELOPMENTAL DISABILITIES IN
  INTERMEDIATE CARE FACILITIES


     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                  Gloria L. Jarmon
                                               Deputy Inspector General

                                                        June 2013
                                                      A-07-12-03180
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                       EXECUTIVE SUMMARY

           Missouri claimed $7.2 million of unallowable Medicaid payments for
           services provided to individuals with intellectual and developmental
           disabilities in intermediate care facilities during State fiscal year 2011.


WHY WE DID THIS REVIEW

Intermediate Care Facilities for the Mentally Retarded (ICF/MR) provide housing and supportive
services to individuals with intellectual and developmental disabilities. Medicaid reimburses
ICFs/MR for services. A previous Office of Inspector General review found that another State
did not always comply with Federal requirements when claiming Medicaid payments for
ICFs/MR.

The Social Security Act requires that payments for services be consistent with efficiency and
economy. In addition, the Centers for Medicare & Medicaid Services (CMS) State Medicaid
Manual requires that amounts that States report for Medicaid reimbursement represent actual
expenditures with supporting documentation.

The objectives of this review were to determine whether (1) Medicaid payment rates for ICFs/MR
met the Federal requirement that payment for services be consistent with efficiency and economy
and (2) Federal reimbursement for Medicaid payments to ICFs/MR was claimed in accordance with
Federal requirements.

BACKGROUND

The Department of Social Services, Missouri HealthNet Division (State agency), administers the
provision and payment of Medicaid services. ICFs/MR include State-operated and privately
operated facilities. These facilities receive reimbursement based on a predetermined per diem
rate.

The CMS-approved Missouri State Medicaid plan, Attachment 4-19D, page 224, specifies that
reimbursements to State-operated ICFs/MR are based solely on the individual Medicaid
recipient’s days of care, multiplied by the facility’s per diem rate, plus an additional payment
from the supplemental enhancement pool; this additional payment is known as the Upper
Payment Limit (UPL). The Missouri State Medicaid plan, Attachment 4-19D, page 174, also
specifies that reimbursements to privately operated ICFs/MR are based on the individual
Medicaid recipient’s days of care multiplied by the facility’s per diem rate. There is no
additional UPL payment for privately operated ICFs/MR.

Each quarter, State Medicaid agencies report ICF/MR expenditures on the standard
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64 report). The amounts reported must be actual expenditures that have
supporting documentation. Medicaid payments for State-operated ICFs/MR are claimed on




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   i
line 4a of the CMS-64 report; Medicaid payments for privately operated ICFs/MR are claimed
on line 4b of the CMS-64 report. CMS uses the CMS-64 report to reimburse States for the
Federal share of Medicaid expenditures.

WHAT WE FOUND

During State fiscal year (FY) 2011 (July 1, 2010, through June 30, 2011), the Medicaid payment
rates for ICFs/MR appeared to meet the Federal requirement that payment for services be
consistent with efficiency and economy. However, the State agency did not always claim
Federal reimbursement for Medicaid payments to State-operated ICFs/MR in accordance with
Federal requirements. Specifically, the State agency claimed a total of $10,010,234 ($7,170,414
Federal share) in unallowable Medicaid payments for State FY 2011, which consisted of:

    •   duplicate Medicaid payments totaling $9,850,026 ($7,053,604 Federal share) that were a
        result of the same UPL payments being claimed for reimbursement for the quarter ended
        December 2010 and again for the quarter ended March 2011 and

    •   unsupported Medicaid payments totaling $160,208 ($116,810 Federal share) that we
        identified during our reconciliation of total expenditures claimed on the CMS-64 reports
        to actual claims.

These errors occurred because the State agency did not have adequate internal controls and
procedures in place to prevent the claiming of unallowable Medicaid payments.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $7,170,414 to the Federal Government and

    •   develop and implement sufficient internal controls and procedures, including those
        pertaining to reconciliations of payments to claimed costs, to prevent the claiming of
        duplicate or unsupported Medicaid payments.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially agreed with our first
recommendation. Specifically, the State agency agreed to refund the entire $7,170,414 that we
questioned. However, the State agency believed that the entire overpayment was attributable to
UPL overclaiming. The State agency agreed with our second recommendation and described
corrective action that it had implemented.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings or recommendations.




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objectives ....................................................................................................................... 1

           Background ..................................................................................................................... 1
               Medicaid Program ................................................................................................... 1
               Missouri Medicaid Program .................................................................................... 2
               Missouri Intermediate Care Facilities for the Mentally Retarded ........................... 2

           How We Conducted This Review................................................................................... 2

FINDINGS .................................................................................................................................. 3

           Medicaid Payment Rates Appeared To Meet Federal Requirement ............................... 3

           State Agency Claimed Duplicate Medicaid Payments ................................................... 3

           State Agency Claimed Unsupported Medicaid Payments .............................................. 4

           State Agency Did Not Have Adequate Controls and Procedures ................................... 4

RECOMMENDATIONS ............................................................................................................ 4

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE .............................................................. 5

           State Agency Comments ................................................................................................. 5

           Office of Inspector General Response ............................................................................ 5

OTHER MATTERS.................................................................................................................... 5

APPENDIXES

           A: Audit Scope and Methodology ................................................................................. 7

           B: Federal and State Requirements Related to Medicaid Payments
              for Intermediate Care Facilities for the Mentally Retarded ...................................... 9

           C: State Agency Comments ......................................................................................... 12




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)                                             iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Intermediate Care Facilities for the Mentally Retarded (ICF/MR) provide housing and supportive
services to individuals with intellectual and developmental disabilities. Medicaid reimburses
ICFs/MR for these services. A previous Office of Inspector General review found that another
State did not always comply with Federal requirements when claiming Medicaid payments for
ICFs/MR. 1

The Social Security Act requires that payments for services be consistent with efficiency and
economy. In addition, the Centers for Medicare & Medicaid Services (CMS) State Medicaid
Manual requires that amounts that States report for Medicaid reimbursement represent actual
expenditures with supporting documentation.

OBJECTIVES

Our objectives were to determine whether (1) Medicaid payment rates for ICFs/MR met the
Federal requirement that payment for services be consistent with efficiency and economy and
(2) Federal reimbursement for Medicaid payments to ICFs/MR was claimed in accordance with
Federal requirements.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

The standard Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program (CMS-64 report), reports actual Medicaid expenditures for each quarter and
is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
amounts reported on the CMS-64 report and its attachments must be actual expenditures with
supporting documentation. The amount that the Federal Government reimburses to State
Medicaid agencies, known as Federal financial participation or Federal share, is determined by
the Federal medical assistance percentage (FMAP), which varies based on a State’s relative per
capita income. 2

1
 Medicaid Rates for New York State-Operated Developmental Centers May Be Excessive (A-02-11-01029), issued
May 17, 2012.
2
 Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by
P.L. No. 111-226, States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.


Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)          1
Missouri Medicaid Program

In Missouri, the Department of Social Services, Missouri HealthNet Division (State agency),
administers the provision and payment of Medicaid services. The State agency uses the
Medicaid Management Information System (MMIS), a computerized payment and information
reporting system, to process and pay Medicaid claims.

Missouri Intermediate Care Facilities for the Mentally Retarded

In Missouri, the Department of Mental Health, Division of Developmental Disabilities, oversees
ICFs/MR. Both State-operated and privately operated ICFs/MR receive reimbursement based on
predetermined per diem payment rates, which are derived from each facility’s actual total costs.

The CMS-approved Missouri State Medicaid plan, Attachment 4-19D, page 224, specifies that
reimbursements to State-operated ICFs/MR are based solely on the individual Medicaid
recipient’s days of care, multiplied by the ICF/MR’s per diem payment rate, plus an additional
payment from the supplemental enhancement pool; this additional payment is known as the
Upper Payment Limit (UPL). 3 Medicaid payments for State-operated ICFs/MR are claimed on
line 4a of the CMS-64 report.

The Missouri State Medicaid plan, Attachment 4-19D, page 174, also specifies that
reimbursements to privately operated ICFs/MR are based on the individual Medicaid recipient’s
days of care multiplied by the ICF/MR’s per diem payment rate. There is no additional UPL
payment for privately operated ICFs/MR. Medicaid payments for privately operated ICFs/MR
are claimed on line 4b of the CMS-64 report.

HOW WE CONDUCTED THIS REVIEW

We reviewed Medicaid payments to State-operated ICFs/MR totaling $73,454,420 ($52,842,477
Federal share) and Medicaid payments to privately operated ICFs/MR totaling $6,100,155
($4,428,412 Federal share), for which the State agency claimed Federal reimbursement during
State fiscal year (State FY) 2011 (July 1, 2010, through June 30, 2011).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, and Appendix B contains
details on the Federal and State requirements related to ICFs/MR.


3
 The Missouri State Medicaid plan, Attachment 4.19-D, page 229, allows for each State-operated ICF/MR to be
paid an annual supplement, payable in quarterly installments, to increase aggregate reimbursements to State-
operated ICFs/MR to the amount that the State reasonably estimates would have been paid under Medicare Payment
Principles.


Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)        2
                                                FINDINGS

During State FY 2011, the Medicaid payment rates for ICFs/MR appeared to meet the Federal
requirement that payment for services be consistent with efficiency and economy. However, the
State agency did not always claim Federal reimbursement for Medicaid payments to State-
operated ICFs/MR in accordance with Federal requirements. Specifically, the State agency
claimed a total of $10,010,234 ($7,170,414 Federal share) in unallowable Medicaid payments for
State FY 2011, which consisted of:

    •   duplicate Medicaid payments totaling $9,850,026 ($7,053,604 Federal share) that were a
        result of the same UPL payments being claimed for reimbursement for the quarter ended
        December 2010 and again for the quarter ended March 2011 and

    •   unsupported Medicaid payments totaling $160,208 ($116,810 Federal share) that we
        identified during our reconciliation of total expenditures claimed on the CMS-64 reports
        to actual claims.

These errors occurred because the State agency did not have adequate internal controls and
procedures in place to prevent the claiming of unallowable Medicaid payments.

MEDICAID PAYMENT RATES APPEARED TO MEET FEDERAL REQUIREMENT

Section 1902(a)(30)(A) of the Social Security Act requires that payment for services be
consistent with efficiency and economy.

Medicaid payment rates for ICFs/MR appeared to meet the Federal requirement that payment for
services be consistent with efficiency and economy. The average payment rate in Missouri for
State-operated ICFs/MR during State FY 2011 was approximately $517, as compared with the
average payment rate for privately operated ICFs/MR of approximately $204 during the same
timeframe. However, we found the difference to be justified based on our observations when
conducting onsite visits at the State-operated and privately operated ICFs/MR. We found that
the State-operated ICFs/MR provided services to more beneficiaries with more complex needs,
operated larger facilities, had greater staffing needs, and provided a wider range of services. In
addition, the State-operated ICFs/MR actual total costs were much higher than the actual total
costs at the privately operated ICFs/MR based on our review of the rate calculations.

STATE AGENCY CLAIMED DUPLICATE MEDICAID PAYMENTS

Federal requirements (42 CFR § 430.30(c) and the CMS State Medicaid Manual, § 2500.2) state
that the amounts reported on the CMS-64 report and its attachments must represent actual
expenditures with supporting documentation.

The State agency claimed Federal reimbursement for duplicate Medicaid payments to State-
operated ICFs/MR during the quarter ended March 2011. Specifically, the State agency claimed
the same UPL payments for State-operated ICFs/MR during the quarter ended December 2010
and again during the quarter ended March 2011.



Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   3
These duplicate payments were unallowable and, therefore, were not claimed in accordance with
Federal requirements. As a result, the State agency claimed unallowable Medicaid payments
totaling $9,850,026 ($7,053,604 Federal share) during State FY 2011.

STATE AGENCY CLAIMED UNSUPPORTED MEDICAID PAYMENTS

Federal requirements (42 CFR § 430.30(c) and the CMS State Medicaid Manual, § 2500.2) state
that the amounts reported on the CMS-64 report and its attachments must represent actual
expenditures with supporting documentation.

The State agency claimed unsupported Medicaid payments for State-operated ICFs/MR during
State FY 2011. Specifically, we identified unsupported Medicaid payments during our
reconciliation of total expenditures claimed on the CMS-64 reports to actual claims for State-
operated ICFs/MR during State FY 2011. As a result of these errors, the State agency overstated
total expenditures on the CMS-64 reports during State FY 2011.

These unsupported payments received by the State agency were unallowable and, therefore, were
not claimed in accordance with Federal requirements. As a result, the State agency claimed
unallowable Medicaid payments totaling $160,208 ($116,810 Federal share) during State
FY 2011.

STATE AGENCY DID NOT HAVE ADEQUATE CONTROLS AND PROCEDURES

On the basis of our audit results, the State agency claimed a total of $10,010,234 ($7,170,414
Federal share) in unallowable Medicaid payments. These errors occurred because the State
agency did not have adequate internal controls and procedures in place to prevent the claiming of
these payments. Specifically, the State agency’s controls did not specify that the State agency
perform reconciliations of payments to claimed costs to ensure that it did not claim duplicate or
unsupported Medicaid payments.

                                        RECOMMENDATIONS

We recommend that the State agency:

    •   refund $7,170,414 to the Federal Government and

    •   develop and implement sufficient internal controls and procedures, including those
        pertaining to reconciliations of payments to claimed costs, to prevent the claiming of
        duplicate or unsupported Medicaid payments.




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   4
                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

The State agency’s comments are included in their entirety as Appendix C.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially agreed with our first
recommendation. The State agency agreed to refund the entire $7,170,414 (Federal share) that
we questioned, but its calculation of the duplicate Medicaid payments differed from the amount
that we calculated. Specifically, the State agency said that it had refunded $7,106,579 on its
CMS-64 report for the quarter ended December 31, 2012, and added that it would refund the
remaining $63,835 through an adjustment on its CMS-64 report for the quarter ended June 30,
2013. In addition, the State agency said that the $63,835 was related to the overclaiming of the
UPL rather than to unsupported payments. The State agency agreed with our second
recommendation and described corrective action that it had implemented.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s comments caused us to change our findings, our recommendations,
or our calculations of the duplicate Medicaid payments. In developing our finding that the
duplicate Medicaid payments were a result of the same UPL payments being claimed for
reimbursement for the quarter ended December 2010 and again for the quarter ended
March 2011, we used actual total costs for our calculations that were supported by the UPL
letters provided by the State agency.

                                           OTHER MATTERS

Federal requirements (42 CFR § 430.30(c) and the CMS State Medicaid Manual, § 2500.2) state
that the amounts reported on the CMS-64 report and its attachments must represent actual
expenditures with supporting documentation. In conjunction with these requirements, the
CMS-64 Medicaid Budget and Expenditure System and State Children’s Health Insurance
Budget and Expenditure System (MBES CBES), Category of Service Line Definitions, provides
guidance on the category of services claimed on each line of the CMS-64 report. 4

As stated in Appendix A, the State agency claimed Federal reimbursement for Medicaid
payments to State-operated ICFs/MR totaling $73,812,074 ($53,102,649 Federal share) during
State FY 2011. The State agency claimed Federal reimbursement for Medicaid payments to
privately operated ICFs/MR totaling $185,016,084 ($133,582,903 Federal share) during the same
time period. Of these claimed amounts, we reviewed payments to State-operated ICFs/MR
totaling $73,454,420 ($52,842,477 Federal share) and payments to privately operated ICFs/MR
totaling $6,100,155 ($4,428,412 Federal share) in this audit.


4
 The MBES CBES is a Web-based application that State Medicaid agencies use to report budgeted and actual
expenditures for Medicaid and the Children’s Health Insurance Program.



Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)      5
During our review, we also identified Medicaid payments totaling $357,654 ($260,172 Federal
share) for which the State agency claimed reimbursement on line 4a of the CMS-64 reports for
State FY 2011 but that involved services not associated with ICFs/MR. In addition, we
identified Medicaid payments totaling $178,915,929 ($129,154,491 Federal share) for which the
State agency claimed reimbursement on line 4b of the CMS-64 reports for State FY 2011 but that
involved services not associated with ICFs/MR.

Services not associated with ICFs/MR but for which payments were claimed on lines 4a and 4b
of the CMS-64 reports included (but were not limited to) alcohol and/or drug assessments,
psychiatric diagnostic interview examinations, crisis intervention services, targeted case
management services, and other community treatment and rehabilitation services.

We removed these claimed payments from our audit scope for this review. We have asked the
State agency to give us supporting documentation for these Medicaid payments and will review
these payments in a subsequent audit to determine whether these expenditures were allowable.




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The State agency claimed Federal reimbursement for Medicaid payments to State-operated
ICFs/MR totaling $73,812,074 ($53,102,649 Federal share) during State FY 2011. The State
agency claimed Federal reimbursement for Medicaid payments to privately operated ICFs/MR
totaling $185,016,084 ($133,582,903 Federal share) during the same period. We did not review
$357,654 ($260,172 Federal share) and $178,915,929 ($129,154,491 Federal share) that the State
agency claimed on lines 4a and 4b, respectively, of the CMS-64 reports for State FY 2011; see
“Other Matters.” Therefore, for the current audit we reviewed Medicaid payments to State-
operated ICFs/MR totaling $73,454,420 ($52,842,477 Federal share) and Medicaid payments to
privately operated ICFs/MR totaling $6,100,155 ($4,428,412 Federal share) for which the State
agency claimed Federal reimbursement during State FY 2011. (See the tables below).

                        Table 1: State-Operated ICFs/MR – Line 4a
                                                      Total
                                                   Computable     Federal Share
        CMS-64 report                                 $73,812,074   $53,102,649
        Less: amount not associated with ICFs/MR          357,654       260,172
        Total amount reviewed                         $73,454,420   $52,842,477

                      Table 2: Privately Operated ICFs/MR – Line 4b
                                                       Total
                                                    Computable     Federal Share
        CMS-64 report                                $185,016,084   $133,582,903
        Less: amount not associated with ICFs/MR      178,915,929    129,154,491
        Total amount reviewed                          $6,100,155     $4,428,412

We did not perform a detailed review of the State agency’s internal controls because our
objectives did not require us to do so. We limited our review to the controls that pertained
directly to our objectives.

We conducted fieldwork at the State agency in Jefferson City, Missouri; at State-operated and
privately operated ICFs/MR in St. Louis, Missouri; and at a State-operated ICF/MR in Marshall,
Missouri; from June through November 2012.

METHODOLOGY

To accomplish our objectives, we:

    •   reviewed applicable Federal laws, Federal and State regulations, and the approved
        Missouri State Medicaid plan;




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   7
    •   held discussions with officials from CMS, the State agency, the Missouri Department of
        Mental Health, and the Missouri Division of Finance and Administrative Services to gain
        an understanding of Missouri’s per diem rate methodology;

    •   interviewed officials while conducting onsite visits at two State-operated ICFs/MR to
        gain an understanding of how ICFs/MR are managed and these facilities’ procedures for
        claiming Medicaid reimbursement;

    •   interviewed officials while conducting onsite visits at a privately operated ICF/MR to
        gain an understanding of the facility’s operations and procedures for claiming Medicaid
        reimbursement;

    •   determined the basis for the State-operated and privately operated ICFs/MR per diem
        rates and verified the calculations;

    •   compared the State-operated ICFs/MR per diem rates with the privately operated
        ICFs/MR per diem rates for State FY 2011;

    •   requested, received, and reviewed MMIS claim payment data for State-operated and
        privately operated ICFs/MR for State FY 2011;

    •   reconciled MMIS claim payment data for State-operated and privately operated ICFs/MR
        to the Medicaid payments claimed on the CMS-64 reports for State FY 2011; and

    •   discussed the results of our review with State agency officials on January 22, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   8
        APPENDIX B: FEDERAL AND STATE REQUIREMENTS RELATED TO
          MEDICAID PAYMENTS FOR INTERMEDIATE CARE FACILITIES
                      FOR THE MENTALLY RETARDED

FEDERAL REQUIREMENTS

Section 1902(a)(30)(A) of the Social Security Act requires that payments for services be
consistent with efficiency and economy.

Section 1903(A)(1) of the Social Security Act authorizes payment to the States of an amount
equal to the FMAP of the total amount expended during the quarter as medical assistance under
an approved State plan.

Federal regulations (42 CFR § 430.30(c)) state:

        (1) The State must submit Form CMS-64 (Quarterly Medicaid Statement of
            Expenditures for the Medical Assistance Program) to the [CMS] central office
            (with a copy to the regional office) not later than 30 days after the end of each
            quarter.

        (2) This report is the State’s accounting of actual recorded expenditures. The
            disposition of Federal funds may not be reported on the basis of estimates.

FEDERAL GUIDELINES

The CMS State Medicaid Manual, § 2500.2, provides instructions for the preparation of the
CMS-64 report and states (§ 2500.2.A): “Report only expenditures for which all supporting
documentation, in readily reviewable form, has been compiled and which is immediately
available when the claim is filed.” (Emphasis in original.)

STATE REQUIREMENTS

The Missouri State Medicaid plan, Attachment 4-19D, page 224, provides the Retrospective
Reimbursement Plan for State-Operated Facilities for ICF/MR Services: “The Missouri Medical
Assistance Program shall reimburse qualified providers of ICF/MR services based solely on the
individual Medicaid recipient’s days of care (within benefit limitations) multiplied by the
facility’s Title XIX per-diem rate and the payment from the supplemental enhancement pool as
described in (5)[1] less any payments made by recipients as described in sections (4) and (5).”

The Missouri State Medicaid plan, Attachment 4-19D, page 174, provides the Prospective
Reimbursement Plan for Nonstate-Operated Facilities for ICF/MR Services: “The Missouri
Medical assistance program shall reimburse qualified providers of ICF/MR services based solely
on the individual Medicaid recipient’s days of care (within benefit limitations) multiplied by the
facility’s Title XIX per-diem rate less any payments made by recipients.”




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   9
The Missouri State Medicaid plan, Attachment 4.19-D, page 229, provides instruction on the
Supplemental Enhancement Payment Pool: “Each state-owned and operated facility for the
mentally retarded (ICF/MR) will be paid an annual supplement, payable in quarterly
installments, to increase aggregate reimbursement to state-owned and operated ICFs/MR to the
amount that the state reasonably estimates would have been paid under Medicare Payment
Principles. The determination will be in conformance with the standards and methods as
expressed in 42 C.F.R. 447.257, 447.272, and 447.304.”

REPORTING REQUIREMENTS

The CMS-64 MBES CBES Category of Service Line Definitions provide guidance on the
category of services claimed on each line of the CMS-64 report:

        4A—Intermediate Care Facility Services – Public Providers – Mentally Retarded
        (ICF/MR) (See 42 CFR 440.150).

        These include services provided in an institution for the mentally retarded or
        persons with related conditions if:

            •    The primary purpose of the institution is to provide health or rehabilitative
                 services to such individuals;

            •    The institution meets the standards in 42 CFR 442, Subpart C
                 (Intermediate Care Facility Requirements; All Facilities); and

            •    The mentally retarded recipient for whom payment is requested is
                 receiving active treatment as defined in 42 CFR 435.1009.

        NOTE: Line 4 is divided into sections for public providers (Line 4.A.) and
        private providers (Line 4.B.). Public providers are owned or operated by a State,
        county, city or other local governmental agency or instrumentality. Increasing
        adjustments related to private providers are considered current expenditures for
        the quarter in which the expenditure was made and are matched at the FMAP rate
        for that quarter. Increasing adjustments related to public providers are considered
        adjustments to prior period claims and are matched using the FMAP rate in effect
        at the earlier of the time the expenditure was paid or recorded by any State
        agency….

        4B—Intermediate Care Facility Services – Private Providers – Mentally Retarded
        (ICF/MR). (See 42 CFR 440.150).

        These include services provided in an institution for the mentally retarded or
        persons with related conditions if:

            •    The primary purpose of the institution is to provide health or rehabilitative
                 services to such individuals;



Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   10
            •    The institution meets the standards in 42 CFR 442, Subpart C
                 (Intermediate Care Facility Requirements; All Facilities); and

            •    The mentally retarded recipient for whom payment is requested is
                 receiving active treatment as defined in 42 CFR 435.1009.

        NOTE: Line 4 is divided into sections for public providers (Line 4.A.) and
        private providers (Line 4.B.). Public providers are owned or operated by a State,
        county, city or other local governmental agency or instrumentality. Increasing
        adjustments related to private providers are considered current expenditures for
        the quarter in which the expenditure was made and are matched at the FMAP rate
        for that quarter. Increasing adjustments related to public providers are considered
        adjustments to prior period claims and are matched using the FMAP rate in effect
        at the earlier of the time the expenditure was paid or recorded by any State
        agency.




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)   11
                         APPENDIX C: STATE AGENCY COMMENTS 





                                                                            JEREMIAH W. (.lAY) N I XON, GOVERNOR • ALAN 0 . FREEMAN, DIRECTOR
              ---·...,~~;JUft~l"l~~____.

                                                             I) 0. BUX ! ".~7 • R~~·),.\:~'>. ,\Y <; T;~'IL 0 1 i !CI·. BUI O!N(• ~ _fiXH RSON Ci1 \'.               t\H) (,lti !07· 1517
                                                                                                          \\"io\ \A .flV~.MO.Ijt)V- .)'; .~~7.-;, \ -·t~ 15   •   .:'71~ 75 1-3.203 FAX




                                                                  May 2, 2013



          Patrick Cogley
          Regional Inspector General for Audit Services
          Office of Inspector General
          Office of Audit Serv ices, Region VII
          601 East 12th Street, Region 0429
          Kansas City, MO 64106

          Dear Mr. Cogley:

          This is in response to the Office of Inspector General's (OIG) draft report entitled "Missouri
          Claimed Unallowable Medicaid Payments for Individuals With Intellectual and
          Developmental Disabilities in Intermediate Care Faci lities", Report Number A-07-12­
          03180. Th e Depa rtme nt of Social Services' (DSS) responses are below. The OIG
          recommendations are restated for ease of reference.

          Recommendation 1: Th e OIG recom mends that the State agency refund $7,170,414 to
          the Federal Government.

          DSS Response : The DSS partially agrees with this recommendation. The questioned
          costs included $7,053,604 FFP for duplicate Medicaid pay ments. DSS believes the
          duplicate claim of regular FFP was for $6,280,902, grossed up to $9,924,004 total
          computable. With the ARRA enhanced rate, the FFP total claimed in error from duplicate
          Medicaid payments was $7,106,579. This amount was returned on the CMS-64 report for
          the quarter ending December 31, 2012.

          DSS believes the balance of questioned costs is related to the overclaiming of UPL, not
          unsupported Medicaid payments. In response to this finding, an adjustment of $86,230
          ($63,835 federal share) will be made on the CMS-64 report for the quarter ending June
          30, 2013.

         Recommendation 2 : Th e OIG recommends that the State agency develop and implement
         sufficient internal controls and procedures, including those pertaining to reconciliations of
         payments to claimed costs, to prevent t he claiming of duplication or unsupported Medicaid
         payments.
                                                                   RELAY MISSOURI
                                                        FOR HEARING AND SPEECH IMPAIRED
                                           1-800-735-2466 VOICE • 1-800-7 35-2966 TEXT PHONE
                                    An l:lfuul ( Jppm111m1y Hmployer. w:rvt<:f!'i. provtdeJ on OIIOIU}i.w,:nmmarory ba.,·;.'i,




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)                                                                                       12
          Patrick Cogley
          May 2, 2013
          Page Two



          DSS Response: Th e DSS agrees with this recommendation . A new process was
          implemented June 30, 2012, to reconcile the draws to the claim in order to prevent
          duplicate claiming on the CMS-64 report.

          Please contact Jennifer Tidball, Director, Di vision of Finance and Administrative Services at
          (573)751 -7533 if you have further questions.




         ~v. (~-
          Aian 0. Freeman
          Director

          AOF/jc




Missouri Medicaid Payments for Intermediate Care Facilities for the Mentally Retarded (A-07-12-03180)      13
